No. 20-6054

In the Supreme Court of the United States
ALEX CORI TRIBUE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF SERVICE
Jeffrey T. Green
Co-Chair, Amicus Committee
NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE LAWYERS
1660 L St., N.W.
Washington, DC 20036
(202) 872-8600

THOMAS A. BURNS
Counsel of Record
BURNS, P.A.
301 W. Platt St., Ste. 137
Tampa, FL 33606
(813) 642-6350
tburns@burnslawpa.com

Shana Tara O’Toole
DUE PROCESS INSTITUTE
700 Penn. Ave., S.E., Ste. 560
Washington, DC 20003
(202) 558-6683
December 9, 2020

Counsel for Amici Curiae

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this date, December 9, 2020, as required by Supreme Court Rule 29, I have served the enclosed amici curiae brief on each party to
the above proceeding or that party’s counsel, and on every other person required to
be served, via email and by depositing an envelope containing the above documents
in the U.S. mail properly addressed to each of them and with first-class postage prepaid. The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice, Room 5614
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
supremectbriefs@usdoj.gov

Conrad Kahn
Assistant Federal Defender
201 S. Orange Ave., Ste. 300
Orlando, FL 32801
Conrad_Kahn@fd.org

December 9, 2020

/s/ Thomas Burns
THOMAS A. BURNS
Counsel of Record
BURNS, P.A.
301 W. Platt St., Ste. 137
Tampa, FL 33606
(813) 642-6350
tburns@burnslawpa.com
Counsel for Amici Curiae

1

